                                                          UNITED STATES DEPARTMENT OF COMMERCE
                                                          Office of Inspector General
                                                          Washington, O.C. 20230




June 6, 2014


MEMORANDUM FOR:              John H. Thompson
                             Director, U.S. Census Bureau


FROM: 	                       Ann C. Eilers   JM- ~ ;;;:~
                              Principal Assistant Inspector General fo r Aud it and Evaluation

SUBJECT: 	                    The U.S. Census Bureau's Regional Office Realignment and Field
                              Management Reforms


As part of our fiscal year 2014 audit and evaluation plan, we will conduct an audit of the Census
Bureau's regional office realignment and field management reforms in order to determine if the
bureau is meeting, or on pace to meet, its goals of reduced cost, improved efficiency and
responsiveness, and improved data quality across the many surveys it conducts annually.

Our objectives are to:
    • 	 Identify and assess the benchmarks-includ ing the manner in which response rates are
        calculated and reported on surveys such as the American Community Survey-that the
        bureau is using to measure the success of the reorganization effort; and assess whether
        or not the bureau is achieving its cost-savings and efficiency goals.
    • 	 Assess the impact of the reorganization on survey sponsors and customers. Determine
        whether external sponsor ing agencies and internal Census Bureau offices are satisfied
        with the survey content and design process, su rvey administration, data quality, costs,
        and any other issues deemed important.

We will contact the audit liaison to arrange an entrance conference. In the interim, we will send
you a request for documents. Please provide us with the information requested within 2 weeks
of receiving this request. In the meantime, if you have any questions about this review, call
Carol Rice, Division Director, at (202) 482-6020. Thank you in advance for your cooperation.


cc: 	   Pam Moulder, Senior Program Analyst, Economics and Statistics Administration
        Adam Miller, Census Audit Liaison
